Audit Report

Office of Community Oriented Policing Services
Methamphetamine Initiative Grants Administered by the Virginia Commonwealth, 
Virginia State Police

Audit Report GR-30-05-005


May 2005
Office of the Inspector General


Executive Summary





Methamphetamine production, sale, and use have increased dramatically in many U.S. communities over the past two decades.  According to the Drug Enforcement Administration, the U.S. is presently experiencing an unprecedented rise in the use, trafficking, and manufacturing of methamphetamine.  To assist in combating the problem, the Office of Community Oriented Policing Services (COPS) began the Methamphetamine Initiative Program.  The purpose of this initiative is to provide funding to state and local law enforcement agencies to reduce methamphetamine production and use.  Specifically, grant recipients are encouraged to develop partnerships with community leaders, local fire departments, drug courts, prosecutors, child protective services, treatment providers, and other law enforcement agencies to create a coordinated response to methamphetamine proliferation.  Since 1998, the COPS Office has awarded more than $350 million under this initiative.  

The Virginia State Police (VSP) was awarded four grants, totaling $1,740,939, to establish, equip, and operate regional methamphetamine task forces in the Shenandoah and Rockingham counties of Virginia, and to provide the State Police with training to help reduce illegal methamphetamine-producing laboratories and methamphetamine-related crimes throughout Virginia.

We reviewed the VSPs compliance with essential grant conditions, including grant drawdowns, budget management and control, grant expenditures (including program income), and grant reporting.  We found that the grantee generally complied with the grant requirements; however, we identified instances of noncompliance with the grant conditions that resulted in dollar-related findings totaling $2,077:1

The VSP had total drawdowns of $249,450 for grant 2001-CKWX-0165 with general ledger expenditure support of $248,794, resulting in $656 in excess drawdowns.  The grantee has submitted the final Financial Status Report (FSR) for this grant.  
	The VSP requested as much as $72,254, $143,496, and $31,011, in electronic advances that exceeded what was required in the next 10 days for grants 2001-CKWX-0165, 2002-CKWX-0206, and 2003-CKWX-0064, respectively.
	The VSP purchased office equipment items (shredder and two typewriters) totaling $1,421 on grant 2001-CKWX-0165.  The office equipment was part of a budget amendment and was not approved in writing.  Further, the 2001 COPS Methamphetamine Manual states that office equipment is an unallowable cost on the grant.    

Our report contains 3 recommendations to address the preceding issues. 

   



Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for definition of questioned costs.